                                           NATIONAL SCIENCE FOUNDATION
                                                        4201 WILSON BOULEVARD
                                                       ARLINGTON, VIRGINIA 22230




                OFFICE OF
            INSPECTOR GENERAL



          MEMORANDUM

          Date:             March 25, 1997
-   --               .-                      .......     .. ----   .               .........   .   --......
          To:               I960400 18
                                                                                                              ...........




          From:       1-1                       Special Agent

          Via:            "4,                  Special Agent-in-Char

          Re :              Resolution of Case




                                   -
          In March 1996, our office received an allegation from an NSF Program Manager that a Small
          Business Innovation Research (SBIR) applicant,               A       -         was listing
                                                                                                                            I
                                                                                   1
                                                                           A


          in their 1995 NSF SBIR proposal          4 a Principal Investigator (PI),            who
          was not primarily employed by

          Subsequent investigation determined that -was         not listed as the PI in NSF proposal
          9561854. In addition, neither          n o r e v e r received funding from NSF and have
          not applied for NSF funding since NSF proposal          4 was submitted. However, since
         m i d receive at least two SBIR Phase I grants from the U.S. Army and U.S, Navy which
                       as the PI, we referred this matter to Defense Criminal Investigative Service
          list
          (DCIS)  pecial Agent

          ~inc-and-                  have not continued to apply for NSF funding and S    /   A has
          kept us informed of DCIS' investigation of the allegation, further use of NSF resources to
          investigate the allegation is not warranted at this time. This case is closed.
